______________________________________________________________________________
FOR IMMEDIATE RELEASE                                                      CRM
THURSDAY, APRIL 29, 2010                                          (202) 514-2007
WWW.JUSTICE.GOV                                              TDD (202) 514-1888

        MIAMI RESIDENT PLEADS GUILTY TO CONSPIRACY TO DEFRAUD
                       THE EXPORT-IMPORT BANK

       WASHINGTON – Miami resident Guillermo Sanchez, 55, pleaded guilty today to
charges that he conspired to defraud the Export-Import Bank of the United States (Ex-Im Bank)
of approximately $854,000, announced Assistant Attorney General Lanny A. Breuer of the
Criminal Division and Osvaldo L. Gratacos, Acting Inspector General of the Ex-Im Bank.

       Sanchez pleaded guilty in U.S. District Court in Washington, D.C., to one count of
conspiracy to defraud the Ex-Im Bank and one count of mail fraud in connection with 10 loans
guaranteed by the Ex-Im Bank.

       According to court documents and testimony at the plea hearing, from approximately
May 2006 through August 2007, Sanchez acted as a purported exporter of construction
equipment to South America in 10 different loan transactions. The loans were obtained from a
Florida bank and insured by the Ex-Im Bank. Sanchez admitted that he and a co-conspirator
prepared and submitted to the Florida bank and the Ex-Im Bank loan documents, including
commercial invoices, packing lists and bills of lading falsely reflecting that Sanchez purchased
and shipped approximately $854,000 worth of generators manufactured in the United States to
South American customers.

       According to court documents and testimony, Sanchez’s company, ACE Products,
received approximately $853,642 in loan proceeds based on the false representations and
Sanchez retained a portion of the money for his own personal benefit and use. In or about
August 2007, defaults on the loan transactions caused the Ex-Im Bank to pay the Florida bank’s
claim for outstanding principal and accrued interest of approximately $854,161.

        The Ex-Im Bank, an independent agency of the United States, is the official export credit
agency of the United States and issues loan insurance to U.S. banks on behalf of creditworthy
foreign companies for the purpose of purchasing U.S. goods. The Ex-Im Bank issues a loan
insurance policy, which provides that if the foreign borrower defaults on its loan repayments to
the lending bank, the Ex-Im Bank will reimburse the amount of the outstanding loan principal
and interest to the lending bank.

     Sentencing for Sanchez is scheduled for Nov. 1, 2010. The conspiracy charge carries a
maximum prison sentence of five years and the mail fraud charge carries a maximum prison
sentence of 20 years. Each charge also carries a maximum fine of $250,000, or twice the gain or
loss, whichever is greater. The defendant also faces a term of supervised release following any
prison sentence.

       The scheme was investigated by special agents of the Ex-Im Bank, Office of Inspector
General, after bank staff referred information concerning the loan defaults. This case was
prosecuted by Senior Litigation Counsel Patrick M. Donley of the Criminal Division’s Fraud
Section.

                                             ###

10-502
